Making

                                  bet
                                    ter

                            Office of the Inspector General
                            Te n n e s s e e V a l l e y A u t h o r i t y



Printed on recycled paper   Semi annual Report
                            October 1, 2010 – March 31, 2011
                         TVA Power Generation 2010
                               (in millions of kilowatt hours)

                Combustion       Non-hydro
                turbine and      renewable
                      diesel     resources
                 generators      <1%                •	 Coal 74,590
                         4%                  Coal
                                             51%
Hydroelectric
         9%                                         •	 Nuclear 53,339

                                                    •	 Hydroelectric 14,013

                                                    •	 Combustion turbine
     Nuclear
       36%                                          	 and diesel engines 5,475

                                                    •	 Non-hydro renewable resources 4




                making TVA better
                Tennessee Valley
Table of Content
               s
                            TVA OIG Semiannual Report




  Message from the Inspector General............................................................... 5
  Special Feature.................................................................................................... 7
  Noteworthy Undertaking................................................................................. 11
  Executive Overview.......................................................................................... 13
  Organization...................................................................................................... 17
  Audits................................................................................................................. 23
  Inspections......................................................................................................... 31
  Investigations.................................................................................................... 35
  Legislation and Regulations............................................................................. 39
  Appendices
  	 Appendix 1 	 Index of Reporting Requirements Under the Inspector General Act............................... 43

  	 Appendix 2 	 Audit and Inspection Reports Issued. ............................................................... 44

  	 Appendix 3 	 Audit and Inspection Reports Issued With Questioned and Unsupported
  	 	                Costs and Recommendations for Better Use of Funds.............................................. 46

  	 Appendix 4 	 Audit and Inspection Reports with Corrective Actions Pending.................................... 48

  	 Appendix 5 	 Investigative Referrals and Prosecutive Results..................................................... 49	

  	 Appendix 6 	 Highlights............................................................................................. 50

  	 Appendix 7 	 Government Contractor Audit Findings............................................................. 51	

  	 Appendix 8 	 Peer Reviews. ........................................................................................ 52

  Glossary, Abbreviations and Acronyms.......................................................... 53




                                                     Semia nnua l Repo rt              O c to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   3
making TVA better
Message From The Inspector General
Message from the Inspector General
I am pleased to present our report for the period October 1, 2010, through March 31, 2011. The
theme of this semiannual is “Making TVA Better.” As you will see throughout this report, the TVA
OIG employees are working hard to do just that. In this semiannual period, our audit, inspection,
and investigation activities resulted in almost $35 million in recoveries, fines/penalties, potential
savings, questioned costs, and funds which could be put to better use, as well as numerous
recommendations to help TVA become better.




S
         ome of the highlights             	 process which showed
         include:                          	 TVA has taken actions to
                                           	 improve ash management
  •	Almost $25 million of potential 	      	 governance, drive culture
  	 savings opportunities for 		           	 change, and evaluate
  	 TVA to use in negotiations of          	 stability and safety
  	 contracts associated with work         	 surrounding ash
  	 primarily at TVA’s Bellefonte          	 impoundments. We will 	
  	 Nuclear Plant as a result of our 	     	 continue to monitor TVA’s 	
  	 preaward audits.                       	 actions in this area as this
                                           	 is a long-term project
  •	The first debarment of a TVA 	         	 that must continue to
  	 contractor and institution of a 	      	 be a priority.
  	 formal process for suspension 	                                                           Richard W. Moore
                                                                                                  Inspector General
  	 and debarment as a result of 	       Making TVA better is a purpose
  	 an OIG criminal investigation.       we share with TVA management              I would like to thank Congress, the
                                         and the Board. Accomplishing              TVA Board, and TVA management for
  •	A follow-up audit to our 	           this purpose depends, in part, on         their continued support of our work.
  	 2006 review of TVA’s Role as 	       creating and maintaining a healthy        We look forward to continuing to do
  	 a Regulator which highlighted 	      relationship. Disagreements will          our part to make TVA better.
  	 TVA has made slow progress in 	      occur. It is how we communicate and
  	 designing a program to enable 	      discuss issues that will determine in
  	 TVA to fulfill its regulatory 		     large part how effective all of us will
  	 responsibilities.                    be in making TVA better. The OIG
                                         and, we believe, TVA are committed
  •	An inspection of the Kingston 	      to having mutually respectful
  	 ash spill stability assessment 	     dialogue on the tough issues.




                                                         Semia nnua l Repo rt      O c to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   5
making TVA better
The Role of the OIG:
S P E C I A L F E AT U R E
The Role of the OIG: Making TVA Better

Why we do what we do In 1993, Professor Paul C. Light’s seminal work, Inspectors General
and the Search for Accountability, quickly became the authoritative source on the work of
Inspectors General (IGs). Light traced the origins of the federal IG concept and the sometimes
unrealistic expectations placed on IGs to “clean up government.” Congress expanded the
number and size of the various Offices of Inspector General (OIGs) in the late 1970s and into
the 1980s in response to a series of scandals in federal agencies.




A
              s Paul Light explains,        With all due respect to Professor
              the Inspector General         Light, those inquiries seem to impute
              Act of 1978 was               far more power than IGs actually
designed to do basically four things:       enjoy. IGs should be able to “move
(1) consolidate the scattered audit and     the needle” on the metrics that count
investigation divisions into an IG office   in government, but much of the
for each federal agency; (2) ensure a       final results lie outside the scope of
measure of independence by putting          an IG’s work. Light recognized that
presidential appointees into the IG         measuring the effectiveness of OIGs
jobs; (3) give the IGs wide latitude        is indeed tricky. Raw statistics rarely
in the scope of their work and in           tell the whole tale.
how to organize their offices; and
(4) provide greater resources for the       For the TVA OIG, we have settled
war on fraud, waste, and abuse.             on a straightforward mission of
                                            “making TVA better.” We, like all
                                                                                       What we did that makes
According to Light, the effectiveness       federal IGs, report our work in more
                                                                                       a difference
of the IG concept should be measured        complex metrics established by the
                                                                                       Occasionally, as we did in our March
in terms of the “quality of life            IG Act which include terms such
                                                                                       2008 semiannual report – Twenty
produced by the government.”                as, “funds put to better use” and
                                                                                       Years of an Independent Light,
Whether a better quality of life was        “questioned and unsupported costs.”
                                                                                       we offer our stakeholders our
being ushered in by the IGs could           See Appendices 2-6 on pages 44-50
                                                                                       perspective on what the TVA OIG is
be addressed by asking these four           for statistical information. Ultimately,
                                                                                       doing that makes a difference. We
questions: (1) Is anyone listening?         however, Professor Light’s conclusion
                                                                                       offer the traditional statistical data
(2) Is the public more trusting?            that the work of an OIG should make
                                                                                       common to our work, but we go
(3) Is the government less vulnerable       life better for people seems right.
                                                                                       beyond that. The reviews we discuss
to fraud, waste, and abuse? and,            For us, that means our work should
                                                                                       here, for the most part, do not
(4) Is the government producing             improve the quality of life for the
                                                                                       represent huge financial savings for
outcomes of greater public value?           residents of the Tennessee Valley. It’s
                                                                                       TVA in terms of its annual operating
Light concluded that at least back in       a matter of public trust.
                                                                                       costs. They do illustrate how our
the early 1990s the results were mixed.


                                                             Semia nnua l Repo rt      O c to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   7
work improves the quality of life for            examining TVA’s status as an electric    in TVA management’s resolution of
residents of the Tennessee Valley.               rate regulator. TVA wholesales           the issues we raised. This delay is in
                                                 power to 155 distributors across         part due to the fact that for too long
The OIG initiated a first in TVA                 the Tennessee Valley. The TVA Act        TVA has neglected its regulatory
history; the debarment of a                      makes TVA the regulator of those         responsibilities and correcting that
contractor doing business with TVA.              distributors through power contracts     pattern is now complicated. Since
In October 2010, TVA debarred                    that contain terms designed to           our first role as a regulator report, we
Holtec International, Inc., based on             basically provide fairness in the        initiated audits of the distributors in
the results of a criminal investigation          way distributors provide power to        2008. Our audits identify instances
conducted by the OIG. Because of                 the end use customer. In 2006, the       of noncompliance with the power
our recommendation, TVA created                  OIG issued a report that essentially     contracts and weaknesses in TVA’s
a formal suspension and debarment                questioned whether TVA was fulfilling    role as a regulator that should be
process and proceeded to debar                   its responsibility as a regulator of     identified by management in its
Holtec for 60 days. Holtec agreed                the distributors. This semiannual        process to govern and regulate
to pay a $2 million administrative               period, we looked once again at          the distributors. Our distributor
fee and submit to independent                    this issue. We completed our report      reviews are on-going and provide
monitoring of its operations for one             entitled, “Follow-up Review of TVA’s     Valley residents with some
year. The TVA Board’s Audit, Risk,               Role as a Regulator—Use of Electric      measure of confidence that there
and Regulation Committee and TVA                 System Revenues for Nonelectric          are independent reviews being
management fully supported the                   Purposes,” to check the progress of      conducted of those distributors. To
OIG’s recommendation to create a                 TVA management’s efforts to improve      TVA management’s credit, there has
suspension and debarment process                 oversight of its distributors.           been steady progress to design a
and submit Holtec to that process.                                                        program that will enable TVA to fulfill
TVA’s Supply Chain organization and              This particular review illustrates the   its responsibilities as a regulator.
Office of General Counsel worked                 limited power of the OIG. We can         We are hopeful that a renewed
collaboratively with the OIG to                  make recommendations, but we             commitment to fulfill statutory
achieve this milestone in TVA history.           have no power to make TVA follow         responsibilities will make TVA better
                                                 these recommendations. In the case       and ultimately life in the Valley better.
How does one contractor being                    of our original report, “TVA’s Role as
debarred make life better for Valley             a Regulator,” issued in June 2006,       Finally, we would offer our Kingston
residents? Ultimately, the less                  there has been an interminable delay     work as another example of how we
vulnerable TVA is to fraud the better
chance rates stay low. This debarment                   Sequoyah Nuclear Plant
signaled TVA’s commitment to do
more than simply ask for the money
back. This debarment action was
literally heard around the world and
drew a line in the sand. Yes, much of
this was symbolic, but symbols matter
when you are the largest public
power company in America.


Another example of the TVA
OIG adding value is our work in


8    Octo ber 1, 2010 – M a rc h 3 1, 2011   S e m i a n n ua l Repo rt
                                                                                             Kingston Fossil Plant


make TVA better. In the aftermath        Our reports on the remediation           relationship between the OIG and
of the Kingston coal ash spill of        work of TVA in the aftermath of the      the federal agency. Given the oft
December 2008, TVA set about to          Kingston coal ash spill provides         cited difficult dynamics between
“make things right.” Our independent     documented evidence that TVA             the “watchdog” and the reviewed
assessment of TVA’s remediation work     fulfilled its promise to “make           agency, trust can be fickle. Naturally,
verified that they did. We engaged       things right.” That is not to say that   the better the trust is, the better the
Marshall Miller and Associates,          everything was done perfectly or         relationship is and, hence, the better
Inc., (Marshall Miller) to provide the   that all of TVA’s critics are happy      the results are. Mutually respectful
TVA OIG expert advice on whether         now. What we have said is that           communication between TVA and
TVA has taken appropriate steps to       our independent engineers have           the OIG continues to grow which
stabilize its coal ash impoundments      satisfied us that what TVA has done      makes for a better TVA and a better
and to appropriately address the risks   meets high standards and exhibits a      OIG, but more importantly inures to
associated with all of their coal ash    commitment to aggressively address       the benefit of the residents of the
processes. Given the reputational        apparent risks to public safety in       Tennessee Valley. We recognize and
harm caused by the Kingston coal ash     a professional way. TVA has made         appreciate the efforts made by both
spill, TVA’s credibility was impaired    great strides in becoming a “good        the TVA Board and TVA management
and an independent review of their       neighbor” once again.                    to contribute to our mutual purpose of
progress was essential.                                                           making TVA better.
                                         In the end, the effectiveness of our
                                         office depends, in part, on a healthy


                                                         Semia nnua l Repo rt     O c to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   9
making TVA better
Noteworthy Undertakings
Noteworthy Undertaking

Audit and Investigation Teams Pass Peer Reviews All federal IG audit and investigative
groups are required by standards to undergo a peer review every three years. These peer
reviews are conducted by other OIG offices using guidance provided by Council of the
Inspectors General on Integrity and Efficiency (CIGIE) to ensure compliance with applicable
standards. During this semiannual period, we
are pleased to announce both our Audit and
Investigation teams passed their peer reviews.




O
Audits                                    in conformity with applicable        Enforcement Authority (December
         ur audit organization’s peer     professional standards in all        2003). For the period ending
         review was conducted by an       material respects. Federal           August 1, 2010, the peer review
         ad hoc CIGIE team led by         audit organizations can receive      team found:
the Department of Education OIG           a rating of pass, pass with
with members from four other OIGs.        deficiencies, or fail. TVA OIG          In our opinion, the system
The peer review team reviewed             has received a peer review              of internal safeguards and
our audit organization’s system of        rating of pass.                         management procedures for
quality control in place to ensure                                                the investigative function of
compliance with the Government
                                        Investigations                            the TVA/OIG in effect for the
                                        Our Investigation organization’s          year ending August 1, 2010, is
Auditing Standards. For the period
                                        peer review was conducted by the          in compliance with the Quality
ending September 30, 2010,
                                        Office of Personnel Management            Standards for Investigations
our audit organization received
                                        OIG. The peer review team reviewed        and the Attorney General
a pass rating which is the highest
                                        our system of internal safeguards         Guidelines. These safeguards
rating. Specifically, the peer review
                                        and management procedures to              and procedures provide
report states:
                                        ensure conformity with both the           reasonable assurance of
                                        Quality Standards for Investigations      conforming with professional
  The system of quality control for
                                        (December 2003) and the Qualitative       standards in the conduct of
  the TVA OIG audit organization
                                        Assessment Review Guidelines for          investigations.
  in effect for the year ended
                                        Federal Offices of Inspector General
  September 30, 2010, has
                                        (May 2009) established by CIGIE,
  been suitably designed and
                                        as well as the Attorney General
  complied with to provide TVA
                                        Guidelines for Offices of Inspector
  OIG with reasonable assurance
                                        General with Statutory Law
  of performing and reporting




                                                      Semia nnua l Repo rt     Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   11
making TVA better
Executive Overview
Executive Overview
During this semiannual period, we are highlighting – both generally and specifically – how the
OIG works to make TVA better by overseeing its operations and making recommendations
to enhance and streamline its processes. These functions are in keeping with the primary
responsibilities of an IG’s office, which are to detect and prevent fraud, waste, abuse, and
violations of law as well as to promote economy, efficiency, and effectiveness in federal
government operations. Since our establishment in 1985, at the heart of our office’s mission has
lived the purpose that drives us – to make TVA better. As discussed in the Special Feature, our
2008 semiannual report – Twenty Years of an Independent Light chronicles this history.




A
              s one of 73 IG               $25 million that could be put to        totaling $88 million related to
              offices with statutory       better use. In addition, these audits   providing financial management and
              independence, we             identified needed improvements          consulting services; labor, materials,
have honored this authority by             in the areas of power distributor       and equipment; and engineering,
focusing on manifesting a better           regulation, distributor compliance      design, and construction support.
quality of life for TVA stakeholders.      with contract terms, storage and        These audits identified potential
In this semiannual period, our audits,     handling of ammonia, as well as         overbillings of $4.8 million. The
inspections, and investigations have       information technology (IT) security    Contract Audits section begins
led to TVA recovering or saving            and controls.                           on page 23 of this report.
almost $35 million. These savings
ideally translate into lower electricity
rates for TVA customers, which             Contract Audits                         Financial and
include everyone who uses electricity      To support TVA management               Operational Audits
in the Tennessee Valley. Essentially,      in negotiating procurement              In order to ensure that TVA has
the more efficient and effective           actions and in support of the           a reliable system of financial and
an IG’s office is, the more efficient      nuclear construction program,           operational controls, Financial and
and effective its beneficiary, in this     we completed five preaward audits       Operational Audits completed three
case TVA, becomes. Below you will          of cost proposals submitted by          engagements and reviewed the
see how our office has specifically        companies proposing to provide          work of the external auditor related
accomplished our informal mission          (1) nondestructive examinations         to the audit of TVA’s fiscal year (FY)
statement to make TVA better during        at TVA’s Nuclear and Fossil Power       2010 financial statements. The team
this semiannual period.                    generating units, (2) engineering       applied certain procedures agreed
                                           services for work on TVA’s              to by management to TVA Winning
                                           Bellefonte Nuclear Plant Unit 1,        Performance Incentive Plan results
AUDITS                                     and (3) geotechnical services. Our      to provide certain assurances to
Our Audits team issued 20 audits this      audits identified nearly $25 million    management, the Board, and others
semiannual period that identified          of potential savings opportunities      prior to incentive plan payouts to
nearly $5 million in questioned            for TVA to negotiate. Additionally,     employees. The team also reviewed
costs, helped TVA to recover close         we completed four compliance            the work of the accounting firm,
to $.8 million, and identified nearly      audits of contracts with expenditures   Ernst and Young LLP, contracted to


                                                           Semia nnua l Repo rt    Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   13
audit TVA’s 2010 financial statements.           INSPECTIONS
Finally, the team reviewed TVA’s                 In order to ensure TVA programs are
storage and handling of anhydrous                efficient, effective, and have proper
ammonia. The Financial and                       controls in place, Inspections assessed
Operational Audits section begins on             TVA’s Dam Safety Program and, as
page 24 of this report.                          a follow up to previous inspections,
                                                 reviewed TVA processes and actions
                                                 pertaining to culture change, stability
IT Audits                                        of ash impoundments, and ash
To ensure TVA’s IT assets are properly
                                                 management. The Inspections section
secured and appropriate controls
                                                 begins on page 31 of this report.
are in place, the IT Audits team
completed four audits pertaining to:
(1) the Federal Information Security             INVESTIGATIONS
Management Act (FISMA); (2) security             As part of our mission to ferret
monitoring; and (3) IT general                   out fraud, waste and abuse, one
controls over (a) a third-party hosted           of our investigations led to the
application, and (b) applications                first contractor debarment in TVA’s
significant to TVA’s FY 2010 financial           nearly 80-year history and payment
reporting. The IT Audits section                 of a $2 million administrative fee
begins on page 26 of this report.                to TVA. Investigations opened
                                                 190 cases and closed 161. Our
                                                 investigators garnered an indictment
Distributor Audits                               on false statements, a conviction in
To ensure compliance with contract
                                                 a case involving transmission line
terms between TVA and distributors,
the OIG completed three audits
of TVA distributors. We looked at
classification and metering issues as
                                                                STATISTICAL HIGHLIGHTS
                                                                       October 1, 2010 – March 31, 2011
well as other contract requirements,
including the use of electric funds                  Audit Reports Issued                          20
and cash reserves. We also looked                    Inspections Completed                         3
at distributor internal controls and
                                                     Questioned Costs                              $4,846,098
identified opportunities for better
oversight of distributors by TVA.                    Disallowed Costs                              $1,303,202
In addition, Distributor Audits                      Funds Recovered                               $762,791
performed a follow-up audit to a 2006                Funds to be Put to Better Use                 $24,963,000
OIG report addressing TVA’s role as
                                                     Funds Realized by TVA                         $12,749,961
a rate regulator to determine if the
                                                     Investigations Opened                         190
issues identified in that report had
been addressed. The Distributor                      Investigations Closed                         161
Audits section begins on page 27                     Recoveries/ Savings/Fines/Penalties           $5,111,718
of this report.                                      Criminal Actions                              2
                                                     Administrative Actions (No. of Subjects)      7

14     October 1, 2010 – M a rc h 3 1, 2011   S e m i a n nua l Repo rt
                                                                                    Ft. Loudoun Lake


destruction, and the sentencing         Investigations teams successfully
of four individuals. In total, our      identified almost $35 million in
investigations resulted in more         recoveries, fines, penalties, potential
than $5 million in projected savings,   savings, questioned costs, and funds
recoveries, fines, and penalties.       that could be put to better use, as
The investigations section begins       shown in the chart to the left.
on page 35 of this report.


Collectively, during this semiannual
period, our Inspections, Audits, and


                                                       Semia nnua l Repo rt       Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   15
making TVA better
Office of the Inspector General
  Office of the Inspector General
  The OIG’s most important resources are its people. Our team is made up of experienced
  auditors, investigators, and administrative staff. The OIG is an independent office within TVA
  and is headquartered opposite TVA corporate offices in TVA’s East Tower, overlooking downtown
  Knoxville. Inspector General Richard Moore believes that in order to effectively provide oversight to
  TVA, we must be strategic in our placement of OIG employees. As such, the IG has worked to ensure
  that our office has a presence at or near all major TVA offices throughout the Tennessee Valley.




T
                                         TVA’s Chattanooga Office Complex

          he OIG has a major satellite   designed
          office in the Edney Building   to drive and
          in Chattanooga, Tennessee,     enhance
where the Inspections unit and           productivity
several investigators are located.       in achieving
There are also field offices at the      office goals.
Watts Bar Nuclear Plant in Tennessee;    Responsibilities
Nashville, Tennessee; Huntsville,        include
Alabama; and Mayfield, Kentucky.         operations
                                         for personnel
                                                                                 plan considers TVA’s strategic
As of March 31, 2011, the OIG had        administration, budget and financial
                                                                                 plans, major management
a total staff of 106. The Audits and     management, purchasing and contract
                                                                                 challenges, TVA’s enterprise risk
Inspections units are composed of        services, facilities, conferences,
                                                                                 management process, and other
58 individuals, the Investigations       communications and IT support.
                                                                                 input from TVA management. The
group includes 30 individuals, and
                                                                                 planning model also evaluates
the Administrative team is comprised
                                                                                 each potential engagement from
of 18 people.                            Audits and Inspections
                                                                                 the standpoint of materiality (i.e.,
                                         The Audits and Inspections
                                                                                 costs or value of assets), potential
The number of personnel located          group performs a wide variety of
                                                                                 impact, sensitivity (including public
at each office is as follows:            engagements designed to promote
                                                                                 and/or congressional interest),
Knoxville-82, Watts Bar Nuclear          positive change and provide
                                                                                 and the likelihood it will result in
Plant-1, Chattanooga-16, Nashville-2,    assurance to TVA stakeholders.
                                                                                 recommendations for cost savings
Huntsville-4, and Mayfield,              Based upon the results of
                                                                                 or process improvements. The result
Kentucky-1.                              these engagements, the Audits
                                                                                 of the OIG audits and inspections
                                         and Inspections group makes
                                                                                 planning process is a focus on those
                                         recommendations to enhance the
Administration                                                                   issues of highest impact and risk of
                                         effectiveness and efficiency of TVA’s
The Administration team works                                                    fraud, waste or abuse. This focus
                                         programs and operations.
closely with the IG, Deputy IG, and                                              extends to the field of IT and risk
Assistant IGs in the conduct of the                                              assessment related to a potential
                                         The team uses an impact- and
day-to-day operations of the OIG and                                             malicious or other intrusion of TVA’s
                                         risk-based approach to developing
to develop policies and procedures                                               IT infrastructure.
                                         an annual work plan. The group’s


                                                         Semia nnua l Repo rt    Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   17
               Organizat
                       ion    TVA OIG



                                                                         Richard W. Moore
                                                                            Inspector General




                                                                           Ben R. Wagner
                                                                        Deputy Inspector General




   Investigations                    Audits & Inspections                           Administration
 Management Team                     Management Team                               Management Team                            Legal Team

            John E. (Jack)                      Robert E. Martin                                  Jill M. Matthews
              Brennan                         Assistant Inspector General                       Assistant Inspector General
                                                                                                                                Charles A. Kandt
           Assistant Inspector                                                                                                      Legal Counsel
          General, Investigations                Audits & Inspections                                 Administration




         Nancy J. Holloway                       Phyllis R. Bryan                                   Kay T. Myers                W. David Winstead
         Special Agent in Charge                  Director, IT Audits                           Manager, Human Resources         Deputy Legal Counsel




          Paul B. Houston                       Lisa H. Hammer                                  Stefanie D. Hoglund
                                                 Director, Financial
         Special Agent in Charge                                                                   Public Affairs Officer
                                                & Operational Audits




                                               Melissa M. Neusel
                                                  Director (Acting),
                                                  Distributor Audits




                                                David P. Wheeler
                                               Director, Contract Audits




                                               Gregory R. Stinson
                                                 Director, Inspections




                                               John H. Barrow III
                                                   Project Manager
                                                   Emerging Issues




                                                 Louise B. Beck
                                                Audit Quality Manager




18   Octo ber 1, 2010 – M a rc h 3 1, 2011   S e m i a n nua l Repo rt
The Audits team, based in                   	 provides claims assistance as        	 TVA’s internal controls
Knoxville, generates and oversees           	 well as litigation support.          	 related to financial reporting,
comprehensive financial and                                                        	 operational efficiency,
performance audits of TVA programs          •	Distributor Audits has lead          	 and compliance with laws
and operations, providing a landscape       	 responsibility for contract          	 and regulations as well as
view of the organization’s overall fiscal   	 compliance reviews of TVA’s          	 operational reviews to assess
and operational health.                     	 distributors. This group             	 the results and economy and
                                            	 assesses compliance with the         	 efficiency of TVA programs.
This dynamic team is made up                	 terms of the power contracts
of four departments—Contract                	 between TVA and its                  •	IT Audits has lead
Audits, Distributor Audits, Financial/      	 distributors and identifies          	 responsibility for audits
Operational Audits, and Information         	 opportunities to improve TVA         	 relating to the security of TVA’s
Technology Audits.                          	 oversight of its distributors.       	 IT infrastructure, application
                                                                                   	 controls, and general controls
  •	Contract Audits has lead 		             •	Financial/Operational Audits         	 associated with TVA systems.
  	 responsibility for contract 		          	 has lead responsibility for          	 This group also performs
  	 compliance and preaward 	               	 oversight of TVA’s financial         	 operational reviews of the
  	 audits. In addition, this group         	 statement audit and related          	 effectiveness of IT-related
  	 performs reviews of TVA’s               	 services performed by TVA’s          	 functions.
  	 contracting processes and               	 external auditor, reviews of




                    Downtown Knoxville View from TVA Towers




                                                         Semia nnua l Repo rt   Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   19
The Inspections team, based in                     However, the team can and does          and effectiveness of operations,
Chattanooga, serves a unique                       provide standard reviews which          and/or conducting inquiries into
function. This group was created                   may be broader in scope when            allegations of fraud, waste, abuse, and
when Inspector General Moore                       needed and seeks to identify when       mismanagement.
recognized the need for an auditing                program objectives and operational
team that could provide a quick, yet               functions are not effective and         Audit and inspection findings vary
thorough review of TVA functions.                  efficient. In accordance with the       depending on the objectives of the
We refer to our Inspections group                  Quality Standards for Inspections,      project. Issues can be generalized
as the “Light Cavalry.” This group                 the objectives of the Inspections       into specific categories depending on
is able to complete reviews quicker                group include providing a source of     the type of engagement performed.
than traditional audits by limiting the            factual and analytical information,     The following graphic shows some
scopes of the reviews.                             monitoring compliance, measuring        representative examples of issues
                                                   performance, assessing the efficiency   commonly reported.


                                 Types of Audit and Inspection Issues
             Information                                   Operational Audits                       Contract Audits
          Technology Audits                          •	 Operational Inefficiency              •	 Inflated Proposals
     •	 Unauthorized Access                          •	 Not Achieving Intended Results        •	 Contract Overpayments
     •	 Inadequate Controls                          •	 Inferior Performance                  •	 Inferior Performance
     •	 Lack of Data Integrity                       •	 Legal/Regulatory Noncompliance        •	 Fraud
     •	 Fraud                                        •	 Fraud




            Financial Audits                               Distributor Audits                            Inspections
     •	 Internal Control Deficiencies                 •	 Contract Noncompliance               •	 Internal Control Deficiencies
     •	 Material Misstatements                        • 	Misstatement of Power                •	 Operational Inefficiency
     •	 Legal Noncompliance                           	 Sales to TVA                          •	 Policy Noncompliance
     • 	Fraud                                         •	 Fraud                                •	 Fraud




20       October 1, 2010 – M a rc h 3 1, 2011   S e m i a n nua l Repo rt
                                Major Categories of Investigations
                                  Contract Fraud                         Theft of Government
                              Defrauding TVA through its                 Property and Services
                              procurement of goods and                 Theft of TVA property and “schemes
                             services. Fraud schemes may                to defraud…designed to deprive
                            include misrepresenting costs,               individuals, the people, or the
                             overbilling charges, product              government of intangible rights, such
                             substitution, and falsification            as the right to have public officials
                                 of work certifications.                  perform their duties honestly.”



      Environmental Crime                             Health Care Fraud                       Illegal Hacking into TVA
     Violations of environmental criminal        The intentional misrepresentation                Computer Systems
   law pertaining to the Tennessee River         of health care services, expenses,             Accessing a computer without
    system and its watershed, along with          billings, needs, or coverage that              authorization or exceeding
   any violations relating to TVA land and       results in unauthorized payments                    authorized access.
     facilities. Actively participates with                or other benefits.
   the Environmental Crimes Task Force,
        Eastern District of Tennessee.



                                  Workers’                               Employee Misconduct
                              Compensation Fraud                         Generally includes misuse of
                                Includes employee fraud,               TVA furnished equipment, travel
                             medical fraud, premium fraud,             voucher fraud, and a multitude of
                               and employer fraud, most                    miscellaneous matters.
                             often a false claim of disability
                                   to receive benefits.




Investigations                                other investigative agencies and              provides legal advice as needed for
The Investigations team proactively           organizations on special projects and         administrative, audits, inspections
searches for activity related to fraud        assignments, including interagency            and/or investigative projects. The
and waste in and abuse of TVA                 law enforcement task forces on                OIG Legal Counsel also coordinates
programs and operations. This highly          terrorism, the environment, and               government relations for the office.
skilled team performs investigative           health care. Above are major
activity in accordance with the               categories of investigations.
Quality Standards for Investigations.
The investigators maintain liaison
with federal and state prosecutors
                                              Legal
                                              The OIG Legal Counsel team monitors
and file a report with the Department
                                              existing and proposed legislation and
of Justice whenever the OIG has
                                              regulations that relate to the mandate,
reason to believe there has been
                                              operations, and programs of the OIG
a violation of federal criminal law.
                                              and/or TVA. In addition, this team
Our investigators partner with




                                                                 Semia nnua l Repo rt       Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   21
making TVA better
Representative Audits
Summary of Representative Audits
During this reporting period, the OIG completed 20 audits which identified approximately $30 million
in questioned costs and funds which could be put to better use. The OIG also identified numerous
opportunities for TVA to improve program operations. Audits completed this period included:
(1) contract preaward and compliance; (2) financial and operational; (3) information technology;
and (4) distributors of TVA power.




T
Contract Audits                          •	 We audited $51.2 million
                                         		 in costs that a contractor 	
Preaward Contract
                                         		 billed to TVA under
Reviews                                                                        Bellefonte Nuclear Plant
                                         		 two contracts for
         o support TVA management
                                         		 financial management                     			 job categories or
         in negotiating procurement
                                         		 and consulting services.                 			 incorrect billing rates,
         actions, we completed five
                                         		 Our audit objective was to               			 timesheet discrepancies,
preaward audits of cost proposals
                                         		 determine if the costs, 	                			 and unallowable 			
submitted by companies proposing
                                         		 which were billed from July 	            			 administrative labor.
to provide (1) nondestructive
                                         		 2003 through December
examinations at TVA’s nuclear
                                         		 2008, were in compliance                 		 –	 An estimated $51,233 was
and fossil power generating units,
                                         		 with the provisions of the 		            			 billed for unallowable or
(2) engineering services for work on
                                         		 contracts. In summary, we                			 unsupported travel 		
TVA’s Bellefonte Nuclear Plant Unit 1,
                                         		 found $4.8 million of costs              			 expenses and travel
and (3) geotechnical services. Our
                                         		 billed by the contractor                 			 agency fees.
audits identified almost $25 million
                                         		 were unsupported or not in 		
of potential savings opportunities
                                         		 accordance with the terms of             		 –	 $1,020,454 in overbillings
for TVA to negotiate. The savings
                                         		 the contracts as follows.                			 occurred because work was
opportunities were primarily related
to overstated wage rates and                                                         			 performed prior to the
                                         		 –	 $3,328,704 was overbilled             			 issuance of a contract work
indirect cost recovery rates.
                                         			 because the contractor did              			 authorization (CWA) or not
                                         			 not limit its overtime billings         			 authorized under the terms
Contract Compliance                      			 as represented in their                 			 of the CWA or costs
Reviews                                  			 proposals and in the final              			 exceeded the CWA
During this semiannual period,           			 terms of one contract. (The             			 funding limits.
we completed four compliance             			 overbilling included about
                                         			 $890,000 that occurred from          	 The overbillings itemized 		
audits of contracts with
                                         			 the end of our audit period          	 above included $108,877 that
expenditures totaling $88 million
                                         			 through March 31, 2010.)             	 was counted in more than
and identified potential overbillings
                                                                                  	 one finding. Accordingly, the 		
of $4.8 million. Highlights of our
                                         	 –	 $514,669 in labor costs were        	 net overbilling after removing 		
completed compliance audits follow.
                                         			 overbilled due to unapproved         	 this duplication was $4,806,183. 	
                                                                                  	 TVA management is reviewing 	


                                                      Semia nnua l Repo rt        Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   23
		 our recommendations to 		
		 determine what actions to take.

     •	 We audited $6.9 million 		
     		 in payments TVA made
     		 to a contractor under two
     		 contracts from January 5,
     		 2004, through April 19, 2010,
     		 for providing labor, material,
     		 and equipment to re-clear
     		 or provide maintenance
                                                         Transmission Lines
     		 of existing transmission line
     		 right-of-way. In summary,
     		 we found the contractor had                  		 that provided security services   TVA’s Storage of Ammonia
     		 overbilled TVA about $1,400                  		 at TVA’s nuclear plants during    We reviewed TVA’s storage and
     		 due to miscellaneous billing                 		 2009. We found the contractor     handling of anhydrous ammonia
     		 errors. However, TVA’s invoice               		 owed TVA $746,482 due to          to determine whether (1) TVA’s
     		 approvers had found and                      		 its actual costs being less       policies and procedures complied
     		 adjusted most of the errors                  		 than the amounts provisionally    with relevant ammonia-related
     		 prior to paying the contractor.              		 billed during calendar year       Occupational Safety and Health
                                                     		 2009. However, prior to our       Administration (OSHA) and other
     	•	 We audited $24.9 million                    		 audit the contractor              federal regulations, and (2) TVA fossil
     		 in payments made by TVA                      		 reimbursed TVA $804,586           plants were in compliance with TVA’s
     		 from 2007 through 2009 to                    		 based on its preliminary          policies and procedures covering
     		 a contractor for providing                   		 estimate of the amount due        ammonia storage and management.
     		 engineering, design, and                     		 TVA. As a result, the amount      In addition, we assessed the general
     		 construction support. In                     		 refunded to TVA was               physical security surrounding
     		 summary, we found the                        		 overstated by $28,104.            TVA’s ammonia storage tanks
     		 contractor overbilled TVA an                                                      and related supports.
     		 estimated $39,915 including
     		 (1) $26,182 in overbilled                  Financial and                          In summary, we determined:
     		 labor and fee costs and                    Operational Audits
     		 (2) $13,733 in overbilled direct           During this semiannual period,           •	TVA has two procedures
     		 costs. We recommended TVA                  we completed four engagements,           	 intended to implement
     		 management take action to                  including the audit of TVA’s             	 certain OSHA requirements.
     		 recover the overbilled costs.              storage and handling of ammonia,         	 However, (1) TVA does not
     		 The contractor agreed with                 performance of agreed-upon               	 have a formal policy
     		 our findings and issued a                  procedures for 2010 Winning              	 addressing American National
     		 credit to TVA for the                      Performance payouts; and                 	 Standards Institute (ANSI) and
     		 overbillings.                              monitoring of TVA’s external             	 OSHA requirements regarding
                                                   auditor’s FY 2010 audit of TVA’s         	 storage and handling of
     •	 We audited $5 million                      financial statements. Highlights of      	 anhydrous ammonia; (2) TVA’s
     		 in provisional billings for                our completed reviews follow.            	 Process Safety Management
     		 indirect costs by a contractor                                                      	 procedure does not address


24       October 1, 2010 – M a rc h 3 1, 2011   S e m i a n nua l Repo rt
	 all of the OSHA requirements;       	 than the requirements               motivate and reward employees
	 and (3) certain sites did not       	 provided for in one of TVA’s        for achieving strategic objectives
	 (a) complete all of the process     	 procedures or reliance upon         and critical success factors. The WP
	 hazard analysis requirements        	 that visitor’s or nonplant          program is based on the principle
	 included in TVA’s Process           	 employee’s site contact.            that operational improvements,
	 Safety Management                                                         reduced costs, and improved
	 procedure, (b) certify their        •	Differences exist in the            revenues can be achieved by
	 operating procedures on an          	 way ammonia storage tanks           applying management focus and
	 annual basis, (c) follow            	 are protected among the             offering monetary incentives.
	 ammonia training                    	 seven plants visited.
	 requirements for their                                                    We applied four agreed-upon
	 employees or have a                                                       procedures requested solely to assist
                                    We made recommendations
	 mechanism for ensuring that                                               management in determining the
                                    to TVA’s Designated Agency
	 the required training of their                                            validity of the WP payout awards for
                                    Safety and Health Official. TVA
	 employees who handle                                                      the year ended September 30, 2010.
                                    management generally agreed with
	 ammonia or perform
                                    our recommendations and has taken
	 maintenance on ammonia                                                    In summary, we found:
                                    or is taking actions to address these
	 systems was completed timely,
                                    recommendations.
	 and (d) satisfy the nameplate                                                •	The FY 2010 WP goals
	 and/or marking requirements                                                  	 were properly approved.
	 for their ammonia storage                                                    	 Between April 16, 2010, and 	
                                    Agreed-Upon Procedures
	 tanks as required by ANSI.                                                   	 November 2, 2010, the Chief 	
                                    Applied to 2010 Winning
                                                                               	 Executive Officer (CEO)
                                    Performance Payouts
•	No method exists to inform                                                   	 approved nine change forms
                                    TVA’s Winning Performance (WP)
	 visitors or nonplant TVA                                                     	 affecting 16 measures and/or
                                    Incentive Plan is a performance
	 personnel that ammonia                                                       	 payout percentages. The 16
                                    management program designed
	 training may be required prior                                               	 affected measures and/or
                                    to promote teamwork, focus on
	 to entering the plants, other                                                	 payout percentages resulted
                                    continued high performance, and
                                                                               	 in nine increases and three 		
                                                                               	 decreases to the payout.


                                                                               •	Actual year-to-date inputs
                                                                               	 for all the metrics agreed
                                                                               	 with the respective supporting
                                                                               	 documentation.


                                                                               •	The actual year-to-date inputs
                                                                               	 for two incentivized metrics
                                                                               	 agreed with the respective
                                                                               	 supporting documentation.


                                                                               •	The payout percentages
   Paradise Fossil Plant                                                       	 provided were recalculated
                                                                               	 and compared without


                                                  Semia nnua l Repo rt      Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   25
                                                                                 Cyber Security


                                                                                             FISMA Review Identified
                                                                                             Needed Improvements
                                                                                             In accordance with FISMA and
                                                                                             guidance from the Office of
                                                                                             Management and Budget, TVA
                                                                                             and the TVA OIG are required to
                                                                                             report on agency-wide information
                                                                                             technology security and privacy
                                                                                             practices annually. In our 2010
                                                                                             review of TVA’s information security
                                                                                             program, we found TVA had made
                                                                                             significant improvements in two
     	 exception. Subsequent                       This also included the audit of           FISMA control areas in the past
     	 changes to actual data                      TVA’s internal controls over financial    year. However, overall progress
     	 and goals were received 		                  reporting as of fiscal year end. The      in implementing IT controls
     	 through November 5, 2010.                   firm also reviewed TVA’s FY 2010          required by FISMA had slowed
     	 We recalculated the payout                  interim financial information filed       while TVA continued work on
     	 percentages based on the                    on Form 10-Q with the Securities          previously recommended actions
     	 revised data without                        and Exchange Commission (SEC).            and redesigned some processes.
     	 exception. A subsequent                     The contract required the work            Additional efforts were needed
     	 change to the actual year-                  be performed in accordance with           to improve compliance with
     	 to-date metric measure was                  generally accepted government             existing controls and address
     	 received through November	 9, 	             auditing standards. Our monitoring        concerns identified in the following
     	 2010, but it did not impact                 of this work disclosed no instances       control areas: (1) certification and
     	 payout percentages. In                      where the firm did not comply,            accreditation process, (2) security
     	 addition, one organization’s                in all material respects, with            configuration management,
     	 payout percentage was                       generally accepted government             (3) incident response and reporting,
     	 reduced by 4.89 percent based               auditing standards.                       (4) security training, (5) remote access,
     	 on an approved change form.                                                           and (6) contingency planning.

                                                   IT Audits
FY 2010 Financial                                  During this semiannual period, we         TVA Improved Cyber
Statement Audit                                    completed four audits in the IT           Security Incident Response
TVA contracted with the independent                environment pertaining to:                In 2009, the OIG completed an audit
public accounting firm of Ernst &                  (1) FISMA; (2) security monitoring;       on the state of IT Cyber Security
Young LLP to audit TVA’s balance                   and (3) IT general controls over (a) a    monitoring within TVA which
sheet as of September 30, 2010, and                third-party hosted application, and       identified areas for improvement. At
the related statements of income,                  (b) applications significant to TVA FY    the request of TVA’s CEO and Audit,
changes in proprietary capital, and                2010 financial reporting.                 Risk, and Regulation Committee,
cash flows for the year then ended.                                                          we re-evaluated the effectiveness

26       October 1, 2010 – M a rc h 3 1, 2011   S e m i a n nua l Repo rt
of controls and processes in place       provisions of the Sarbanes-Oxley Act.    Audits evaluates these distributors
to (1) monitor for, (2) identify, and    We tested 30 control activities within   to assess compliance with key power
(3) respond to cyber security events.    five IT general control domains          contract provisions, including:
We assessed progress toward              and seven applications designated        accurate reporting of electric sales
completing actions in response to        by TVA as requiring supplemental         by customer class to facilitate proper
findings and recommendations in our      testing for FY 2010 financial            revenue recognition and billing by
previous audit. While we found TVA       reporting. The purpose of testing        TVA; nondiscrimination in providing
had improved its ability to detect and   was to provide control owners with       power to members of the same
respond to cyber security attacks, we    the status of operating effectiveness    rate class; and the use of power
identified several areas where the       of primary control activities at the     revenues. Additionally, Distributor
program could be further improved.       end of FY 2010. We determined            Audits makes recommendations
                                         19 control activities were operating     to help (1) distributors improve
                                         as designed, two were not operating      their internal controls, and (2) TVA
Weak IT General Controls                 effectively, four could be improved,     management improve its oversight
at an Application                        and five could not be tested due to      of the distributors.
Service Provider                         the nonoccurrence of an activity that
We audited the IT general controls       would trigger the control operation.     During this semiannual period, the
for an application hosted by a third                                              OIG completed three distributor
party vendor. TVA uses the application                                            audits. In addition, we performed
to manage contractor requests and        Distributor Audits                       a follow-up audit to a 2006 OIG
approval, selection, time reporting/     TVA has 155 distributors                 report addressing TVA’s role as an
billing, and reporting for noncraft      –municipalities and cooperatives –       electric rate regulator to determine
staff augmentation contractors. We       that resell TVA power to consumers       if the issues identified in that report
determined control weaknesses            across the Tennessee Valley.             had been addressed. The following
existed in the areas of (1) account      Power sales to these distributors        describes the issues noted in one
management, (2) system configuration     comprise about 85 percent of TVA’s       or more of the three completed
management, and (3) computer             operating revenue. Distributor           distributor audits.
operations. We also determined TVA’s
contract language could be improved
by developing a standard clause that
addressed the protection of TVA
proprietary information stored on
vendors’ systems.



IT General Controls for
Financial Reporting were
Generally Effective
When Congress passed the
Consolidated Appropriations Act of
2005 which established the
new nine member board for TVA,
it also included requirements that
TVA comply with SEC reporting
requirements including certain

                                                        Semia nnua l Repo rt      Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   27
Classification and Metering We                   have already corrected or are taking         amount, and recourse protections.
noted instances where customers                  action to correct these issues.              Without an executed loan document,
were not classified properly and                                                              the electric department has no
similar customers were not classified            Use of Electric Revenues We                  legal recourse to recover amounts
the same. The impact of these issues,            found one of the three distributors          expended to fund the broadband
where we had adequate information                reviewed had more than enough                department. TVA and the distributor
to estimate, was not significant;                cash on hand to fund planned/                agreed to take corrective action.
however, there were some instances               actual capital expenditures and
where we did not have enough                     provide cash reserves exceeding              Distributor Internal Control Issues
information to estimate the impact.              the minimum TVA guidelines of a              At one of the distributors audited,
Generally, the distributors agreed               cash ratio of 5 to 8 percent, and one        we found improvements could be
with our findings and have already               distributor used electric department         made with respect to remediating
corrected or are taking action to                funds for nonelectric businesses             a billing agency programming
correct these issues.                            without obtaining appropriate written        error that resulted in customers
                                                 agreements with TVA.                         not receiving correct refunds. The
Other Contract Requirements                                                                   distributor agreed and is taking
We found distributors were not                   Cash Reserves While TVA has                  action to correct the issue.
complying with certain other contract            established guidelines to determine
requirements. Specifically, we noted:            if a distributor has adequate cash           Opportunities for TVA Oversight
(1) contracts were not in place for all          reserves (a cash ratio of 5 to 8 percent),   Improvements We found
customers whose demand exceeded                  TVA has not established guidelines           opportunities to enhance TVA’s
1 megawatt; and (2) cost allocations             to determine if a distributor’s cash         oversight at each of the three
for joint use of property and services           reserves are excessive. One of the           distributors that had also been
approved by TVA were not being                   three distributors reviewed had a            reported in previous OIG distributor
applied; instead, other allocation               cash ratio exceeding the minimum             audit reports. In response, TVA
methods not approved by TVA were                 guidelines of 5 to 8 percent. TVA            agreed to take corrective action on
used, and/or allocations were applied            has agreed to define criteria for            these issues.
improperly; (3) accounts were not                determining when a distributor’s
classified in accordance with Federal            cash reserves are excessive.                 Follow-up Review of TVA’s
Energy Regulatory Commission
                                                                                              Role as a Rate Regulator
                                                 Use of Funds for Nonelectric                 In a 2006 OIG report, we
requirements; (4) required applications
                                                 Purposes One of the three                    recommended TVA execute contract
for customers receiving the Small
                                                 distributors reviewed used electric          modifications with distributors who
Manufacturing Credit were not
                                                 department funds for nonelectric             wish to pursue nonelectric business
obtained; (5) the Enhanced Growth
                                                 businesses without obtaining                 ventures, and TVA management
Credit (EGC) was not calculated
                                                 appropriate written agreements with          agreed to do so. However,
correctly for all customers;
                                                 TVA. The distributor (1) used electric       during our follow-up audit, TVA
(6) required EGC documentation
                                                 system funds to pay for expenses of          management informed us that an
was not maintained; and (7) a
                                                 the broadband department without             alternative approach to protect the
spreadsheet used by a distributor to
                                                 approval from TVA and (2) did                interests of TVA and other parties
calculate electric sales reported to
                                                 not have loan documents in place             had been implemented. Instead
TVA contained an error, causing the
                                                 between the electric department              of formal contract modifications,
distributor to overpay TVA for demand
                                                 and the broadband department that            TVA will require written agreements
by approximately $104,000. Generally,
                                                 specified interest rates, payment            with terms to protect all parties
TVA and the distributors agreed and


28     October 1, 2010 – M a rc h 3 1, 2011   S e m i a n nua l Repo rt
                                                                                             Transmission Lines




when approving a distributor’s            	 review of a distributor’s
investment of “reserves for renewals,     	 financial position; however,         TVA CUSTOMERS
replacements, contingencies, and          	 the procedures and metrics              FY 2010 Revenue by Customer
working capital” in nonelectric           	 have not been approved
business ventures.                        	 and implemented.                                                             12%
                                                                                  85%
                                                                                                                               3%
TVA designated one distributor’s          •	Reviewed distributors
request evaluation and subsequent         	 previously approved to use
agreements as the “model” for             	 electric system revenues for
handling future requests. While           	 nonelectric purposes, or
the new approach and “model”              	 reviewed those distributors
may prove effective for controlling       	 that were using funds without
risks, we noted three areas where         	 approval, to determine if
protection for the distributors,          	 appropriate protections (e.g.,
ratepayers, and TVA could be              	 formal written agreements)
strengthened. TVA has corrected           	 were in place.
one of the issues. Specifically, we
found TVA had not:                      TVA agreed to take action on these       •	 155 Distributors - municipalities/	
                                        issues. TVA corrected a third issue      	 cooperatives          85%
  •	Established guidelines to           by documenting (1) guidelines for
  	 indicate when a distributor’s       reviewing business plans when a           •	Industries (directly served)             12%
  	 cash reserves are excessive         distributor proposes to invest in
  	 and should be returned to           nonelectric ventures or use electric     •	 Federal Agencies (directly served) 	
  	 the ratepayers through rate         system revenues for nonelectric          	 and Other Revenue Sources                 3%
  	 reductions, as required by the      purposes and (2) the terms to be
  	 power contract. TVA has made        included in the resulting formal
  	 some progress in formalizing        written agreements.
  	 procedures and metrics for


                                                       Semia nnua l Repo rt    Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1     29
making TVA better
Representative Inspections
Summary of Representative Inspections
During this reporting period, Inspections completed three reviews including the assessment
of (1) TVA’s Dam Safety Program; and (2) processes in place to address deficiencies in ash
management governance, cultural issues, the stability of ash impoundments, and deficiencies in
the coal ash management program.




T
Review of TVA’s Dam                      applicable laws and regulations;             	 clearer lines of responsibility;
Safety Program Identified                and encompassed all aspects                  	 decreased lag time from
Areas for Improvement                    of a comprehensive dam safety                	 inspection to report issuance;
                                         program. Our review found TVA                	 rotation of inspectors; and
        his review was the result        was taking steps to identify and             	 Dam Safety personnel
        of broad interest by the         mitigate its risks; was adhering to the      	 presence during project
        media, TVA stakeholders,         Federal Guidelines for Dam Safety,           	 work would enhance the
and the public at large surrounding      with a few exceptions; and had a             	 identification and mitigation
the safety and condition of TVA          comprehensive dam safety program.            	 of dam safety risks.
dams after the ash spill at the          Specifically:
Kingston Fossil Plant. TVA’s Dam                                                      •	TVA’s policy was to follow the
Safety organization (Dam Safety) is        •	TVA was moving from a	                   	 Federal Guidelines for Dam
responsible for ensuring that TVA’s        	 reactive to a proactive                  	 Safety, although not required
Dam Safety Program, formalized in          	 posture by anticipating and              	 under federal law. TVA was
1982, meets federal guidelines. TVA’s      	 mitigating risks. According              	 adhering to the federal
Dam Safety Program consists of             	 to TVA’s Hydro Board of                  	 guidelines, with the exception
modifications to ensure the structural     	 Consultants, an independent              	 of certain aspects of the
integrity and safe operation of TVA’s      	 team of three internationally            	 operations and maintenance
49 dams and related structures,            	 recognized experts in dam                	 (O&M) manuals, Training and
instrumentation to monitor dam             	 engineering retained by Dam              	 Awareness Program, and
performance, periodic inspections,         	 Safety, it would be very                 	 emergency action plans (EAPs).
maintenance and repairs, as well           	 difficult for something to               	 Specifically, O&M manuals were
as emergency preparedness. In              	 happen that would not be                 	 not updated on a regular basis
addition, Dam Safety’s scope of            	 detected in time to mitigate             	 and periodic evaluation was not
responsibility includes saddledams,        	 disaster with the monitoring             	 performed of site personnel
dikes, and impoundments in the             	 TVA has in place. In addition,           	 conducting monthly inspections.
TVA system.                                	 TVA was implementing                     	 Additionally, the EAPs lacked a
                                           	 new analysis to assist                   	 process for terminating an
The objectives of our review               	 with the identification and              	 emergency, a designated EAP
were to determine if TVA’s Dam             	 mitigation of risk, based on             	 Coordinator, and information
Safety Program identified and              	 recommendations by TVA’s                 	 related to unmanned dams.
adequately addressed significant           	 independent consultants.                 	 These deficiencies could
risks; was in compliance with TVA          	 However, based on interviews             	 hinder risk identification and
policies and procedures, as well as        	 with TVA plant personnel,                	 mitigation activities.



                                                         Semia nnua l Repo rt      Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   31
                                                                       Nickajack Lake




     •	We contracted with Marshall                 noted staffing and funding should         initiated to assess and report
     	 Miller to conduct a peer                    be increased, and the O&M manuals         on the appropriateness of TVA
     	 review of TVA’s Dam Safety                  needed to be updated. Since these         processes, and completed and
     	 Program. Based on Marshall                  issues negatively impacted TVA            planned actions pertaining to culture
     	 Miller’s review, it appeared                management of ash impoundments,           change, stability assessments of
     	 that while TVA had a                        we recommended the potential              TVA ash impoundments, and ash
     	 comprehensive dam safety                    impact and risk of parallel issues        management.
     	 program in place, the                       identified in this review be thoroughly
     	 program could be                            examined by TVA as part of its effort     The objectives of this review were
     	 strengthened in the areas of                to change the company’s culture. TVA      to determine what processes TVA
     	 inspection, instrumentation,                management agreed with our findings       had followed since the Kingston
     	 Dam Safety O&M programs,                    and recommendations and has taken         Fossil Plant ash spill to address:
     	 and emergency action planning.              or plans to take corrective actions.      (1) deficiencies in ash management
                                                                                             governance, (2) cultural issues
Additionally, there were several                                                             identified, (3) stability of the other
issues identified in this review that              Stability Assessment                      coal ash impoundments, and
were previously identified in our                  Process Review                            (4) deficiencies in the coal ash
inspection report titled, Review of                Determined TVA                            management program. The scope
Kingston Fossil Plant Ash Spill Root               Responded Appropriately                   of this review included information
Cause Study and Observations about                 to the 2008 Kingston                      available to the OIG regarding coal
Ash Management (Kingston Report).                  Ash Spill                                 ash management and risk.
The Kingston Report noted areas                    The OIG identified weaknesses
where responsibility and accountability            in TVA culture and the coal ash           We found that since the Kingston
were unclear. Maintenance was also                 management program in previous            Fossil Plant ash spill, TVA had taken
identified as a “big problem” and we               inspections. This review was              appropriate actions to: (1) improve



32       October 1, 2010 – M a rc h 3 1, 2011   S e m i a n nua l Repo rt
                                   Kingston Fossil Plant




ash management governance,                      	 organizational effectiveness         	 processes and development
(2) drive culture change, (3) evaluate          	 initiative, and reorganizing to      	 of ash management policies
the stability and corresponding                 	 improve accountability.              	 and procedures are examples
safety factors pertaining to ash                                                       	 of key actions taken.
impoundments, (4) remediate                     •	Hired a consultant, Stantec,
risks, and (5) identify and address             	 Inc., to evaluate the stability   While TVA has made significant
ash management deficiencies.                    	 of facility ash impoundments      progress to-date, it is important to
Specifically, TVA had:                          	 and established an                note this is a long-term project that
                                                	 appropriate evaluation and        TVA must continue as a priority.
  •	Decided to include coal ash                 	 remediation process.
  	 impoundments under the
  	 Dam Safety Program to                       •	Taken immediate actions to
  	 increase governance and                     	 improve stability and
  	 use the expertise of TVA’s                  	 remediate risks pertaining
  	 independent hydro review                    	 to many TVA coal ash
  	 board in assessing the                      	 impoundments.
  	 safety and stability of coal
  	 ash impoundments.                           •	Compiled a gap analysis
                                                	 of recommendations to TVA
  •	Taken action to drive                       	 from relevant review sources
  	 organizational culture change,              	 to ensure ash management
  	 including hiring an                         	 problems were addressed.
  	 independent cadre of                        	 The development and
  	 professionals to assess                     	 implementation of the quality
  	 TVA culture, instituting an                 	 assurance/quality control



                                                            Semia nnua l Repo rt    Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   33
making TVA better
Representative Investigations
Summary of Representative Investigations
During this reporting period, one of TVA OIG’s investigations led to TVA’s first contractor debarment
and a $2 million administrative fee due to TVA. Investigations opened 190 cases and closed 161.
Our investigators garnered an indictment on false statements, a conviction in a case involving
transmission line destruction, and the sentencing of four individuals. In total, our investigations
resulted in more than $5 million in projected savings, recoveries, fines, and penalties.




Contractor Misconduct                     add three
Leads to First TVA                        noncompany




T
Debarment and the                         members                                            Browns Ferry Nuclear Plant
Collection of $2 Million                  to its board
Administrative Fee                        of directors
                                          and sign an
         he OIG previously reported       administrative
         that a TVA technical contract    agreement
         manager received money           ensuring                                without pay, issuing the employee
from a TVA contractor. Criminal           compliance to the above terms.          a written warning, and requiring the
actions were taken against the former                                             employee to complete a request
TVA technical contract manager                                                    for approval of outside employment
in that investigation. In addition,       TVA Program Manager                     and a financial disclosure form.
a report of administrative inquiry        Receives a 30-Day                       Additionally, all regional custodial/
was issued to TVA management              Suspension Following an                 facilities maintenance employees
regarding the actions of the              OIG Investigation                       were required to complete TVA’s
contractor, Holtec International,         TVA OIG addressed an allegation
                                                                                  2010 ethics training, and the
Inc. In response to this report, TVA      that a custodial program manager
                                                                                  custodial supply rooms were made
established and filled the position       was using TVA employees,
                                                                                  more secure to prevent misuse.
of a TVA suspension and debarment         equipment and supplies to run
                                                                                  Also, TVA Facilities O&M group
officer to review the matter, which led   a private cleaning company. The
                                                                                  agreed to perform a cost-benefit
to the first debarment action at TVA.     manager’s company has a contract
                                                                                  analysis regarding installation of a
Holtec International, Inc., received      to provide janitorial services to
                                                                                  security system to track entrances
a sixty-day debarment (October 12         city buildings in the TVA region of
                                                                                  and exits to all custodial supply
through December 12, 2010); and,          responsibility. The investigation
                                                                                  rooms accessible by noncustodial
by agreement with TVA, will pay a         determined the employee did utilize
                                                                                  employees, analyze monthly use
$2 million administrative fee to TVA;     a TVA vehicle during the normal
                                                                                  of custodial supplies to identify
appoint a corporate governance            TVA work schedule to do non-
                                                                                  unsupportable use, and remind
officer and an independent monitor        TVA work, and the individual was
                                                                                  employees of TVA policy regarding
(at the contractor’s expense);            untruthful about this use during an
                                                                                  misuse of government property.
implement a code of conduct, to           interview. The OIG issued a report,
include training for all employees,       and TVA management responded by
executives, directors, and officers;      suspending the individual for 30 days


                                                           Semia nnua l Repo rt   Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   35
                                                                                         contractor tools and equipment at
                                                                                         the beginning and the completion
                                                                                         of outages. We recommended
                                                                                         Fossil management adopt a similar
                                                                                         procedure for all fossil plants
                                                                                         and have plant security conduct
                                                                                         periodic vehicle searches of
                                                                                         contractors exiting the plants. Fossil
                                                                                         management agreed to develop and
                                                                                         implement a procedure for all TVA
                                                                                         fossil plants, which was implemented
                                                                                         this reporting period, and TVA Police
                                                        Watts Bar Nuclear Plant
                                                                                         is presently reviewing additional
Chemistry Process at Watts
                                                 revised regarding the deletion and      security needs at the plants.
Bar Nuclear Investigated
                                                 retention of data.
The OIG investigated a complaint
that chemistry records were
                                                                                         Two Convicted for
destroyed during an outage at Watts
                                                 Missing Tools Located,                  Destruction of
Bar Nuclear Plant. The complaint
                                                 TVA Credited                            TVA Property
alleged that a TVA manager was
                                                 In a prior semiannual period, we        On September 8, 2009, at
told ahead of time that polishers,
                                                 received information from a TVA         approximately 9:50 a.m., the Marshall-
(which purify water) were in danger
                                                 program manager that tools were         Murray 161 kV transmission line failed
of failing, the result of which would
                                                 missing from a spring 2010 outage       causing a power outage in Marshall
be unacceptably elevated chemical
                                                 at the Cumberland Fossil Plant. The     and Calloway Counties, and the City
concentrations immediately before
                                                 missing tools were possibly utilized    of Murray, Kentucky. A TVA electrician
re-start. The manager decided not to
                                                 by an electrical contractor who had     responding to the power outage
replace the polishers and they failed.
                                                 been assigned $26,000 in tools by       noticed that insulators had been shot
In addition, steam generator samples
                                                 TVA tool management personnel.          at structure No. 331 on the property
were out of acceptable pressurized
                                                 At the completion of the outage,        at 1265 Pugh School Road, Benton,
water reactor secondary water
                                                 the contractor failed to account for    Kentucky. A joint investigation was
chemistry guidelines as set forth by
                                                 approximately $23,000 in tools. Two     conducted with the TVA Police.
the Electric Power Research Institute,
                                                 separate searches of the contractor’s   A $1,000 reward was posted for
and were destroyed by instruction
                                                 shop uncovered $5,939 in tools that     information leading to the arrest and
of the same manager and removed
                                                 clearly belonged to TVA. Following      conviction of the person or persons
from the computer database. The
                                                 the searches, the contractor had a      responsible for the damage to the
investigation concluded the facts as
                                                 total of $18,666 in tools they failed   transmission line. Our investigation
alleged were largely accurate, but
                                                 to return to TVA. This amount was       resulted in the identification and
that the actions of the manager were
                                                 credited to TVA. Additional walk-       conviction of two individuals: one
not technically in violation of written
                                                 downs at the Cumberland plant           convicted and sentenced last year;
policy and procedure. A report to
                                                 revealed $88,219 in unaccounted         one during this reporting period.
management was submitted, with
                                                 for tools and equipment.                Both pled guilty in state court to
which management generally agreed.
                                                                                         one count of Criminal Mischief 2nd
As a result of our investigation, TVA’s
                                                 Two fossil plants had procedures        Degree, were sentenced to one year
Watts Bar Chemistry manual was
                                                 already in place to inventory           in jail, two years’ probation, as well as


36     October 1, 2010 – M a rc h 3 1, 2011   S e m i a n nua l Repo rt
fined $160 in court costs and ordered    sites. Investigations issued a report      welds at Browns Ferry Nuclear
to pay restitution to TVA in the         to TVA management concerning               Plant. The subcontract manager was
amount of $4,300.                        Wheeler Dam. OIG Inspections               sentenced to 14 months probation
                                         reported the results of the reviews        (eight of those months are in home
                                         at the other sites. Management             confinement) and his accomplice was
Allegation of Unethical                  responded by obtaining an                  sentenced to 12 months probation
Relationship Substantiated               independent third party assessment         (four months in home confinement).
TVA Office of the General Counsel        of Wheeler Dam Unit 1, installing          The two were jointly and severally
reported to the OIG an allegation that   additional sensors to measure              ordered to pay $31,855 in restitution.
a subcontracting company working         vibration, and issuing new written
under a TVA custodial provider           procedures concerning start, stop
contract was owned and operated          and operation of the unit.                 Former TVA Employee
by the wife of a facilities custodial                                               Sentenced on Stealing
manager. The subcontractor worked                                                   Four Credit Cards
in the area supervised by the TVA        TVA Subcontract                            A former TVA employee at Allen
manager. TVA’s contract manager          Manager Sentenced                          Fossil Plant was sentenced in
was unaware of the relationship.         A TVA subcontract manager and an           Tennessee state court after pleading
Our investigation substantiated          accomplice were sentenced after            guilty to theft of four TVA gas
the allegation, and a report was         pleading guilty to felony mail fraud       purchase credit cards. The individual
issued to TVA management, who            and related counts. The involved           was also required to pay restitution
responded appropriately to ensure        individuals falsified invoices for labor   to TVA of $16,262.
the conflict was addressed and that      and materials related to preheating
measures were taken to prevent
future ethical conflicts.

                                                                Wheeler Dam

OIG Followed Up on
Concerns Regarding
Dam Safety
In conjunction with OIG Inspections,
Investigations performed a risk-
based special project concerning
TVA’s Dam Safety Program. The
project closed this semiannual
period. Investigations had received
information that Wheeler Dam
Unit 1 had structural issues, and
that Wilson Dam had waterfalls on
the downstream side of the dam
possibly originating from seepage
from the upside of the dam.
Investigations performed reviews
of the Wheeler, Wilson, Bear Creek
(nonpower), Nickajack, and Douglas


                                                        Semia nnua l Repo rt        Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   37
making TVA better
Legislation and Regulations
  Legislation and Regulations
  In fulfilling its responsibilities under the IG Act of 1978, as amended, the OIG follows and reviews
  existing and proposed legislation and regulations that relate to the mandate, operations and
  programs of TVA. Although TVA’s Office of the General Counsel reviews proposed or enacted
  legislation that could affect TVA activities, the OIG independently follows and reviews proposed
  legislation that affects the OIG and/or relates to economy and efficiency or waste, fraud, and
  abuse of TVA programs or operations.




T
         he TVA OIG has been             information infrastructure to the      education, training, and outreach;
         tracking the following major    Director of United States Computer     and establishing an SBIR/STTR
         pieces of legislation during    Emergency Readiness Team.              fraud hotline. Members of the CIGIE
the past six months:                     Agencies that fail to comply with      Legislation Committee are currently
                                         corrective measures in accordance      working with Allison Lerner, National
                                         with DHS recommendations must          Science Foundation IG and Chair of
S. 413 – The Cybersecurity               submit a report to their agency IG     the CIGIE Misconduct in Research
and Internet Freedom Act                 explaining why; and agencies must      Working Group, to address concerns
Senator Joseph Lieberman (D-CT)          ensure that information relating       regarding IG independence and
introduced this legislation which        to the adequacy and effectiveness      to propose requiring lifecycle
would amend the Homeland                 of information security practices is   certifications by every small business
Security Act of 2002 “to protect and     available to IGs on an automated and   entity that applies for or receives an
enhance the Nation’s cybersecurity       continuous basis.                      award under one of the programs.
infrastructure.” S. 413 would
establish an Office of Cyberspace
Policy in the Executive Office of the    S. 493 – The SBIR/STTR                 Office of Government
President that would develop national    Reauthorization Act                    Ethics (OGE) Draft
strategies to increase cyberspace        The bill was introduced on March 4,    to Amend Ethics in
security and resiliency. It would        by Senator Mary Landriue (D-LA) and    Government Act
also establish a National Center for     passed the Senate Committee on         OGE recently circulated for comment
Cybersecurity and Communication          Small Business and Entrepreneurship    a draft of its new legislative proposal
(NCCC) within the Department             on March 9. Among other things,        to amend the Ethics in Government
of Homeland Security (DHS) to            S. 493 directs the Small Business      Act (EIGA). Among other things, it
implement the national strategies        Administration to revise the Small     would amend Section 403 of EIGA
of the Office of Cyberspace Policy.      Business Innovation Research (SBIR)    to provide the OGE Director with
IGs would be required to assess          and Small Business Technology          the authority to request an IG to
the adequacy and effectiveness of        Transfer (STTR) policy directives to   investigate an ethics matter. The IG
their agency’s information security      require IGs at granting agencies to    may decline the request, but the IG
programs every two years. IGs would      take steps to prevent fraud, waste,    must provide a written reason for the
also be required upon request to         and abuse. Such measures would         declination within 30 days. The draft
give law enforcement information         include coordinating information       would also require agencies to notify
related to the security of the federal   sharing between agencies; improving    OGE of any relevant IG investigations


                                                        Semia nnua l Repo rt    Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   39
as soon as the IG determines there
are grounds to believe a conflict of
interest violation has occurred.


Four Bills Would
Establish New IGs
H.R. 727 and S. 348 would each
create a Judicial Branch IG, who
would be appointed to a four
year term.


H.R. 808 (The Department of Peace
Act) would establish a Cabinet level
department in the Executive Branch
with a presidentially appointed IG
for the department. Notably, there is
not an explicit requirement that the
IG be appointed with the advice and
consent of the Senate.


S. 428 introduced by Senator Claire
McCaskill (D-MO), establishes an
IG for the Senate. The IG would
be appointed jointly by the Senate
majority and minority leaders and
would be under their general
supervision. The IG would serve
a term of five years and would be
limited to two reappointments.



Ongoing Matters
There has been no further action on
S. 241 (The Non-Federal Employee
Whistleblower Protection Act);
S. 300 (The Government Charge
Card Abuse Prevention Act); or
H.R. 209 (The Reducing Information
Controls Designations Act). We
continue to be interested in these
bills and will closely monitor them.




40    October 1, 2010 – M a rc h 3 1, 2011   S e m i a n nua l Repo rt
       Cades Cove Great Smoky Mountains National Park




Semia nnua l Repo rt   Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   41
making TVA better
Appendices
                                                                                                    Appendix 1
INDEX OF REPORTING REQUIREMENTS UNDER THE INSPECTOR GENERAL ACT



      REPORTING          REQUIREMENT                                                                       PAGE
      Section 4(a)(2)    Review of Legislation and Regulations                                                 39-40

      Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                                        23-37

                         Recommendations With Respect to Significant Problems, Abuses,
      Section 5(a)(2)                                                                                          23-37
                         and Deficiencies

                         Recommendations Described in Previous Semiannual Reports in
      Section 5(a)(3)                                                                                      Appendix 4
                         Which Corrective Action Has Not Been Completed

                         Matters Referred to Prosecutive Authorities and the Prosecutions
      Section 5(a)(4)                                                                                      Appendix 5
                         and Convictions That Have Resulted
      Section 5(a)(5)
                         Summary of Instances Where Information Was Refused                                    None
      and 6(b)(2)

      Section 5(a)(6)    Listing of Audit and Inspection Reports                                           Appendix 2


      Section 5(a)(7)    Summary of Particularly Significant Reports                                           23-37

                         Status of Management Decisions for Audit and Inspection Reports
      Section 5(a)(8)                                                                                      Appendix 3
                         Containing Questioned Costs

                         Status of Management Decisions for Audit and Inspection Reports
      Section 5(a)(9)                                                                                      Appendix 3
                         Containing Recommendations That Funds Be Put to Better Use

                         Summary of Audit and Inspection Reports Issued Prior to the
      Section 5(a)(10)   Beginning of the Reporting Period for Which No Management                             None
                         Decision Has Been Made

      Section 5(a)(11)   Significant Revised Management Decisions                                              None

                         Significant Management Decisions With Which the Inspector General
      Section 5(a)(12)                                                                                         None
                         Disagreed

                         Information Under Federal Financial Management Improvement Act of
      Section 5(a)(13)                                                                                         None
                         1996

                         Appendix of results of any peer review conducted by another Office of
      Section 5(a)(14)   Inspector General during the reporting period and, if none, a statement of        Appendix 8
                         the date of the last peer review.

                         List of outstanding recommendations from any peer review conducted by
      Section 5(a)(15)   another Office of Inspector General, including a statement describing the             None
                         status of the implementation and why implementation is not complete.

                         List of peer reviews conducted of another Office of the Inspector
                         General during the reporting period, including a list of any outstanding
      Section 5(a)(16)                                                                                     Appendix 8
                         recommendations made from any previous peer review that remain
                         outstanding or have not been implemented.




                                                  Semia nnua l Repo rt            Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   43
Appendix 2
              OIG AUDIT REPORTS ISSUED DURING THE SIX-MONTH PERIOD ENDED MARCH 31, 2011

     Report Number                                                                             Questioned   Unsupported   Funds Put To
                        Title
     and Date                                                                                       Costs         Costs     Better Use

     CONTRACT AUDITS
     2010-13249
                        DF&K Right-of-Way Clearing                                                    $0            $0             $0
     10/19/2010
     2008-11553
                        Deloitte Consulting, LLP                                               $4,806,183           $0             $0
     10/27/2010
     2010-13058
                        WorleyParsons                                                             $39,915         $523             $0
     10/27/2010
     2010-13463
                        Pinkerton Government Services                                                 $0            $0             $0
     12/01/2010
     2010-13485         Preaward Review – Proposal to Provide Nondestructive
                                                                                                      $0            $0     $1,159,000
     01/21/2011         Examinations at TVA Nuclear and Fossil Generation Units
     2010-13503         Preaward Review – Proposal for Bellefonte Nuclear Plant Unit 1
                                                                                                      $0            $0     $4,900,000
     01/26/2011         Master Completion Contract
     2010-13550-01      Preaward Review – Proposal to Provide Engineering Services for
                                                                                                      $0            $0     $7,300,000
     02/16/2011         Bellefonte Nuclear Plant Unit 1
     2010-13550         Preaward Review – Proposal to Provide Engineering Services for
                                                                                                      $0            $0    $11,543,000
     03/03/2011         Bellefonte Nuclear Plant Unit 1
     2010-13643
                        Preaward Review – Proposal to Provide Geotechnical Services                   $0            $0        $61,000
     03/08/2011
     DISTRIBUTOR AUDITS

     2009-12699         Follow-up Review of TVA’s Role as a Rate Regulator – Use of Electric
                                                                                                      $0            $0             $0
     12/09/2010         Revenues for Nonelectric Purposes

     2010-13021
                        Pulaski Electric System                                                       $0            $0             $0
     12/09/2010
     2010-13025
                        North Georgia Electric Membership Corporation                                 $0            $0             $0
     01/04/2011
     2010-13024
                        Newport Utilities                                                             $0            $0             $0
     02/08/2011
     FINANCIAL AND OPERATIONAL AUDITS
     2010-13251
                        TVA Storage and Management of Ammonia                                         $0            $0             $0
     10/04/2010
     2010-13596         Agreed-upon Procedures Applied to TVA Fiscal Year 2010
                                                                                                      $0            $0             $0
     11/10/2010         Performance Measures
     2010-13143
                        Review of the Rework on Watts Bar Unit 2                                      $0            $0             $0
     03/21/2011
     INFORMATION TECHNOLOGY AUDITS
     2010-13033
                        Effectiveness of Cyber Security Monitoring Follow-up Review                   $0            $0             $0
     10/12/2010
     2010-13507         Sarbanes Oxley Testing – IT General Controls and Application
                                                                                                      $0            $0             $0
     10/22/2010         Control Narratives
     2010-13446
                        Federal Information Security Management Act (FISMA) Evaluation                $0            $0             $0
     12/02/2010
     2010-13077
                        Contractor Workforce Management Application Security Assessment               $0            $0             $0
     02/17/2011
     TOTAL
                                                                                               $4,846,098         $523    $24,963,000
     AUDITS  (20)




44       Octo ber 1, 2010 – M a rc h 3 1, 2011    S e m i a n nua l Repo rt
                                                                                                   Appendix 2
OIG INSPECTION REPORTS ISSUED DURING THE SIX-MONTH PERIOD ENDED MARCH 31, 2011

Report Number                                                           Questioned   Unsupported                 Funds Put
                     Title
and Date                                                                     Costs         Costs              To Better Use
2009-12651           Review of TVA’s Dam Safety Program                         $0                 $0                          $0
10/13/2010
2010-13105           Stability Assessment Process Review                        $0                 $0                          $0
11/10/2010
2010-13571           Review of TVA’s Raccoon Mountain Fire Protection           $0                 $0                          $0
03/31/2011           Systems
TOTAL                                                                          $0                  $0                          $0
INSPECTIONS (3)

     Note: A summary of or link to the full report may be found on the OIG’s Web site at www.oig.tva.gov.




                                                       Semia nnua l Repo rt      Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1        45
Appendix 3
                                          TABLE I TOTAL QUESTIONED AND UNSUPPORTED COSTS AUDITS


                                                                                    Number             Questioned          Unsupported
     Audit Reports                                                                of Reports                Costs                Costs

     A. For which no management decision has been made by
                                                                                             0                    $0                    $0
        the commencement of the period


     B. Which were issued during the reporting period                                        2           $4,846,098                  $523

     Subtotal (A+B)                                                                          2          $4,846,098                   $523

     C. For which a management decision was made during the
                                                                                             21          $4,846,098                  $523
        reporting period

           1. Dollar value of disallowed costs                                               2           $1,303,202                  $523

           2. Dollar value of costs not disallowed                                           1           $3,542,896                     $0

     D. For which no management decision has been made by the
                                                                                             0                    $0                    $0
        end of the reporting period

     E. For which no management decision was made within six
                                                                                             0                    $0                    $0
        months of issuance

     1
         The total number of reports for which a management decision was made during the reporting period differs from the sum of C(1) and
         C(2) when the same report(s) contain both recommendations agreed to by management and others not agreed to by management.




                                TABLE I TOTAL QUESTIONED AND UNSUPPORTED COSTS INSPECTIONS


                                                                                    Number             Questioned          Unsupported
     Inspection Reports                                                           of Reports                Costs                Costs

     A. For which no management decision has been made by the
                                                                                             0                    $0                    $0
       commencement of the period


     B. Which were issued during the reporting period                                        0                    $0                    $0

     Subtotal (A+B)                                                                          0                    $0                    $0

     C. For which a management decision was made during the
                                                                                             0                    $0                    $0
       reporting period

           1. Dollar value of disallowed costs                                               0                    $0                    $0

           2. Dollar value of costs not disallowed                                           0                    $0                    $0

     D. For which no management decision has been made by the
                                                                                             0                    $0                    $0
       end of the reporting period

     E. For which no management decision was made within six
                                                                                             0                    $0                    $0
        months of issuance




46         Octo ber 1, 2010 – M a rc h 3 1, 2011   S e m i a n nua l Repo rt
                                                                                                                     Appendix 3
TABLE II FUNDS TO BE PUT TO BETTER USE AUDITS


                                                                                                                 Number                 Funds To
Audit Reports                                                                                                  of Reports               Be Put To
                                                                                                                                       Better Use

A. For which no management decision has been made by the commencement of the period                                          2         $13,695,565

B. Which were issued during the reporting period                                                                             5         $24,963,000

Subtotal (A+B)                                                                                                               7         $38,658,565

C. For which a management decision was made during the reporting period                                                      52        $19,815,565

     1. Dollar value of recommendations agreed to by management                                                              5           $7,450,161

     2. Dollar value of recommendations not agreed to by management                                                          3         $12,365,404

D. For which no management decision has been made by the end of the reporting period                                         2         $18,843,000

E. For which no management decision was made within six months of issuance                                                   0                    $0

2
    The total number of reports for which a management decision was made during the reporting period differs from the sum of C(1) and C(2)
    when the same report(s) contain both recommendations agreed to by management and others not agreed to by management.




TABLE II FUNDS TO BE PUT TO BETTER USE INSPECTIONS


                                                                                                                 Number                 Funds To
Inspection Reports                                                                                             of Reports               Be Put To
                                                                                                                                       Better Use
A. For which no management decision has been made by the commencement of the period                                          0                    $0

B. Which were issued during the reporting period                                                                             0                    $0

Subtotal (A+B)                                                                                                               0                    $0

C. For which a management decision was made during the reporting period                                                      0                    $0

     1. Dollar value of recommendations agreed to by management                                                              0                    $0

     2. Dollar value of recommendations not agreed to by management                                                          0                    $0

D. For which no management decision has been made by the end of the reporting period                                         0                    $0

E. For which no management decision was made within six months of issuance                                                   0                    $0




                                                                   Semia nnua l Repo rt             Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1        47
Appendix 4
                               AUDIT AND INSPECTION REPORTS WITH CORRECTIVE ACTIONS PENDING

     As of the end of the semiannual period, final corrective actions associated with eight audits and three inspections were not
     completed within twelve months of the final report date. Presented below for each audit and inspection are the report number
     and date, a brief description of the open recommendations, and the date management expects to complete final action.

     Audit Report
     Number and           Report Title and Recommendation(s) for which Final Action is Not Complete
     Date

                          Review of TVA Actions to Protect Social Security Numbers and Eliminate Their Unnecessary Use
     2007-11216           TVA agreed to implement protective measures for applications and reports containing social security
     06/02/2008           numbers, such as restricting access and logging downloads. Management expects final action to be
                          completed by August 31, 2011.


                          Sequoyah Nuclear Plant – Cyber Security Assessment
     2007-11388           TVA agreed to (1) implement additional device segmentation; (2) use private non-Internet routable IP
     08/21/2008           addresses; (3) evaluate the use of third-party applications; (4) regularly change system passwords; and
                          (5) secure remote access to control systems when this access is necessary. Management expects final action
                          to be completed by September 30, 2011.


                          Contractor Workforce Management (CWM) – Access and General Control Review
     2008-11965           TVA is currently undergoing a request for proposal process to either replace or upgrade the existing CWM
     02/04/2009           system. Replacement of the system will remediate the identified vulnerabilities. As of March 31, 2011, TVA
                          was evaluating the proposals.


                          Hydroelectric Plant Automation – General, Physical, and Security Controls Review
     2008-12127
     09/24/2009           TVA agreed to implement the new access control system at all sites and further restrict access to key
                          components. Management expects final action to be completed by June 1, 2013.


                          Enterprise Backup and Recovery – Information Systems
                          TVA agreed to (1) change the process for remote backups by centralizing offsite storage and tape disposal
     2009-12338-05        in Chattanooga, procuring additional tape safes for sites and tape vaults in Chattanooga, and instituting a
     01/26/2010           process for securing tapes transmitted from the sites to Chattanooga; and (2) work with the backup software
                          vendor to (a) address partial back-up tracking, (b) search industry best practice, and (c) define requirements.
                          Management expects final action to be completed by September 15, 2011.


                          Enterprise Backup and Recovery – Fossil Power Group
                          TVA agreed to (1) complete documented formal backup and restore procedures and processes for each
     2009-12338-07        power plant; (2) establish a repository for critical instruments and controls for each power plant and maintain
     01/26/2010           the repository; (3) develop procedures to inventory, properly store, and test backup media for each power
                          plant; (4) identify processes where reliance for backup is with Information Technology and develop service
                          level agreements to meet backup and restore requirements; and (5) perform periodic backup testing to verify
                          procedures are functional. Management expects final action to be completed by May 27, 2011.



                          Federal Information Security Management Act (FISMA) Evaluation
     2009-12697
     01/25/2010           TVA agreed to improve reporting, monitoring, and remediate security weaknesses, as well as improve efforts
                          to meet remediation due dates. Management expects final action to be completed by August 31, 2011.


                          Distributor Review of Tullahoma Utilities Board
     2008-12042
     01/19/2010           TVA agreed to update the joint cost allocations. Management expects final action to be completed by
                          April 30, 2011.




48      Octo ber 1, 2010 – M a rc h 3 1, 2011   S e m i a n nua l Repo rt
                                                                                                                    Appendix 4
 AUDIT AND INSPECTION REPORTS WITH CORRECTIVE ACTIONS PENDING (CONTINUED)


  Inspection
  Report Number             Report Title and Recommendation(s) for which Final Action is Not Complete
  and Date
                            Review of Physical and Environmental Controls for the Chattanooga Data Center

  2005-518I                 TVA agreed to replace the Chattanooga office complex telephone system with a system operating on
                            the Internet Protocol to eliminate three specific failure modes which could hamper or eliminate TVA’s
  08/31/2005
                            communication ability. Implementation of the new communication system has been delayed by management
                            due to what is considered higher priority projects. Management expects final action to be completed by
                            December 31, 2012.

                            Distributor Review of Monroe County Electric Power Authority
  2008-12007                TVA agreed to (1) consider feasibility of a comprehensive guideline for permissible expenditures, and
  05/13/2009                (2) recommend to the Board that additional financial metrics, including when cash reserves become
                            excessive, be implemented in the rate setting process. Management expects final action to be completed
                            by November 30, 2011.

                            Distributor Review of Lewisburg Electric System
  2008-12040                TVA agreed to (1) consider feasibility of a comprehensive guideline for permissible expenditures, and
  05/13/2009                (2) recommend to the Board that additional financial metrics, including when cash reserves become
                            excessive, be implemented in the rate setting process. Management expects final action to be completed
                            by November 30, 2011.




                                                                                                                    Appendix 5
 INVESTIGATIVE REFERRALS AND PROSECUTIVE RESULTS1


  Referrals
  	           Subjects Referred to U.S. Attorneys                                                                               22

  	           Subjects Referred to State/Local Authorities                                                                       1

  Results
  	           Subject Indicted                                                                                                   1

  	           Subjects Convicted                                                                                                 1

  	           Pretrial Diversion                                                                                                 0

  	           Referrals Declined                                                                                                19


		 1
       These numbers include task force activities and joint investigations with other agencies.




                                                                          Semia nnua l Repo rt     Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   49
         Appendix 6
                                                                                                                    HIGHLIGHTS – STATISTICS
                                                                           MAR 31,            SEPT 30,              MAR 31,             SEPT 30,          MAR 31,
                                                                            2011                2010                 2010                 2009             2009
              AUDITS
              AUDIT STATISTICS
              Carried Forward                                                        40                   60                  44                    70               28
              Started                                                                29                   28                  46                    46               59
              Canceled                                                               3                    (7)                 (4)                   (6)              (3)
              Completed                                                              20                  (41)             (26)                     (66)             (14)
              In Progress at End of Reporting Period                                 46                   40                  60                    44               70


              AUDIT RESULTS (Thousands)
              Questioned Costs                                                 $4,846              $2,7130               $980                $6,744            $1,226
              Disallowed by TVA                                                 1,303               1,8790               2,255                2,799                 829
                                                                                                            1                       2                                  3
              Recovered by TVA                                                   763                 1,921               2,655                     909              453


              Funds To Be Put To Better Use                                   $24,963              $13,696              $9,703              $50,570                  $0
              Agreed to by TVA                                                  7,450                    149             8,853                4,723                   0
                                                                                          4
              Realized by TVA                                                  12,750                2,091                480                 4,395                   0


              OTHER AUDIT-RELATED PROJECTS
              Completed                                                              13                   27                  10                    16                8
              Cost Savings Identified/Realized (Thousands)                           $0                   $0                  $0                    $0               $0


              INSPECTIONS
              Completed                                                               3                    9                   2                    21                4
              Cost Savings Identified/Realized (Thousands)                           $0                   $0                  $0                    $0               $0


              INVESTIGATIONS5
              INVESTIGATION CASELOAD
              Opened                                                             190                     199              168                      194              171
              Closed                                                             161                     221              198                      223               91
              In Progress at End of Reporting Period                             199 6                   167              189 7                    251              280


              INVESTIGATIVE RESULTS (Thousands)
              Recoveries                                                       $2,144                $36.2               $41.8                $20.6         $10,725.3
              Savings                                                           2,515                4,028                     0              472.1                   0
                                                                                                                8
              Fines/Penalties                                                    453                       8                  5.9                   .4          352.7


              MANAGEMENT ACTIONS
              Disciplinary Actions Taken (# of Subjects)                             7                    14                   7                     6                3
              Counseling/Management Techniques Employed (# of Cases)                 24                   31                  25                    10                1
                                                                                      9
              Debarment                                                              1


              PROSECUTIVE ACTIVITIES (# of Subjects)
              Referred to U.S. Attorneys                                             22                   51                  16                    45               18
              Referred to State/Local Authorities10                                  1                     2                   2                     6                --
              Indicted                                                               1                     7                   4                     3                4
              Convicted                                                              1                     8                   3                     3                3
              Pretrial Diversion                                                     0                     1                   2                     0                0


          	     1
                 	Adjusted to correct amount reported in prior semiannual reports.
          	     2
                 	Ibid.
          	     3
                 	Ibid.
          	     4
                 	Includes $304,036 savings realized in excess of amounts identified in the audits.
          	     5
                 	These numbers include task force activities and joint investigations with other agencies.
          	     6
                 	Adjusted from the previous period.
          	     7
                 	Ibid.
          	     8
                 	Ibid.
          	     9
                 	Category added in semiannual period ended March 31, 2011.
          	    10
                 	Category added in semiannual period ended September 30, 2009.


50   Octo ber 1, 2010 – M a rc h 3 1, 2011                 S e m i a n nua l Repo rt
                                                               Wheeler Dam




                                                                                                     Appendix 7
Government Contractor Audit Findings
The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each Inspector General appointed
under the Inspector General Act of 1978 to submit an appendix on final, completed contract audit reports issued to the
contracting activity that contain significant audit findings—unsupported, questioned, or disallowed costs in an amount in
excess of $10 million, or other significant findings—as part of the Semiannual Report to Congress. During this reporting
period, OIG issued no contract review reports under this requirement.




                                                         Semia nnua l Repo rt       Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1   51
Appendix 8
Peer Reviews of the TVA OIG                                           Peer Review Performed by the TVA OIG
Audits Peer Review                                                    As reported in our last semiannual report, TVA OIG led a
IG audit organizations are required to undergo an external            multi-agency peer review of the investigative operations
peer review of their system of quality control at least               of the Special Inspector General for Afghanistan
once every three years, based on requirements in the                  Reconstruction (SIGAR). The peer review resulted in
Government Auditing Standards (Yellow Book). Federal                  a report reflecting ten findings/deficiencies, and lead
audit organizations can receive a rating of pass, pass with           Inspector General Moore, in his role as CIGIE Chair,
deficiencies, or fail. During this reporting period, TVA OIG          Investigations Committee, forwarded the report to the
was the subject of a peer review of its audit organization.           Attorney General for the United States for consideration
The review was performed by an ad hoc team appointed                  on whether SIGAR’s law enforcement powers should be
by the Council of the Inspectors General on Integrity and             suspended pending corrective action on the deficiencies.
Efficiency and led by the U.S. Department of Education
(Education) Office of the Inspector General (OIG). Education          By request of SIGAR, a remediation or “follow-up”
OIG issued the report, dated March 21, 2011, in which                 review was conducted at SIGAR’s offices in Arlington,
it concluded that the TVA OIG audit organization’s system             Virginia, January 3-5, 2011, by two of the original review
of quality control for the year ended September 30, 2010,             team members. The ten findings/deficiencies cited in
was suitably designed and complied with to provide the                the initial report were broadly in the areas of a historical
OIG with reasonable assurance of performing and reporting             lack of policies and procedures (Finding 1), training
in conformity with applicable professional standards in all           (Findings 2 through 5), established priorities and planning
material respects. Accordingly, TVA OIG received a rating             (Findings 6 and 7), and file/records maintenance (Findings
of pass. The peer review report is posted on our Web site at          8 through 10). The findings/deficiencies reflected a lack
http://oig.tva.gov/peer-review.html.                                  of conformity to applicable Attorney General Guidelines
                                                                      for Offices of Inspector General with Statutory Law
Investigations Peer Review                                            Enforcement Authority (2003) and President’s Council
Investigative operations undergoes an external peer review,           on Integrity and Efficiency/Executive Council on
Quality Assessment Review (QAR), at least once every three            Integrity and Efficiency Quality Standards for
years. During this reporting period, the Office of Personnel          Investigations (December 2003) for at least a significant
Management (OPM) OIG conducted a QAR of the TVA                       portion of the review period. The July 2010 Quality
OIG Investigative Operations. The OPM OIG found the                   Assessment Report is posted on SIGAR’s Web site at
“…system of internal safeguards and management                        http://www.sigar.mil/pdf/peer_review/Section5.pdf.
procedures for the investigative function of the TVA
OIG in effect for the year ending August 1, 2010, is in               The remediation review resulted in the conclusion that
compliance with the Quality Standards for Investigations              SIGAR has implemented or taken steps to remediate all
and the Attorney General guidelines. These safeguards                 of the findings contained in the Peer Evaluation of the
and procedures provide reasonable assurance of                        Special Inspector General for Afghanistan Reconstruction
conforming with professional standards in the conduct of              Report. The remedial review did not modify the opinion
investigations.” The QAR report can be found on the TVA               and conclusions in the original report and did not constitute
OIG Web page at http://oig.tva.gov/peer-review.html.                  an external peer review of SIGAR’s investigative organization.
                                                                      SIGAR’s investigative organization is scheduled to
                                                                      undergo another full scope peer review of their
                                                                      investigations operations in mid 2013.




52     Octo ber 1, 2010 – M a rc h 3 1, 2011   S e m i a n nua l Repo rt
Glossary                                      Abbreviations and Acronyms
Disallowed Cost A questioned cost             The following are acronyms and abbreviations
that management, in a management              widely used in this report.
decision, has sustained or agreed should
not be charged to the agency.                 ANSI . . . . . . . . . . . . . . . . . . . American National Standards Institute

                                              CEO  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  Chief Executive Officer
Final Action The completion of all            CIGIE  . . . . . . . . . . . . . . . . . . . . . . Council of the Inspectors General
management actions, as described in a
                                              		                                                        on Integrity and Efficiency
management decision, with respect to
audit findings and recommendations.           CWA . . . . . . . . . . . . . . . . . . . . . . . . . . .  Contract Work Authorization
When management concludes no action           Dam Safety  . . . . . . . . . . . . . . . . . . . . . . . . . Dam Safety organization
is necessary, final action occurs when a
management decision is made.                  DHS . . . . . . . . . . . . . . . . . . . . . . .  Department of Homeland Security

                                              EAPs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  Emergency Action Plans
Funds Put To Better Use Funds,                EGC  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Enhanced Growth Credit
which the OIG has disclosed in an audit
report, that could be used more efficiently   EIGA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Ethics in Government Act
by reducing outlays, deobligating             FISMA . . . . . . . . . . . Federal Information Security Management Act
program or operational funds, avoiding
unnecessary expenditures, or taking other     FLETA . . . . . . . . .  Federal Law Enforcement Training Accreditation
efficiency measures.                          FY	 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  Fiscal Year

                                              IG	 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Inspector General
Management Decision The
evaluation by management of the               IT	  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Information Technology
audit findings and recommendations            Kingston Report  . . . . . . . . . . . . . . .  Review of Kingston Fossil Plant
and the issuance of a final decision by       		                                             Ash Spill Root Cause Study and
management concerning its response to         		                                 Observations About Ash Management
such findings and recommendations.
                                              Marshall Miller . . . . . . . . . . . . . . Marshall Miller and Associates, Inc.

Questioned Cost A cost the IG                 OGE  . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Government Ethics
questions because (1) of an alleged
                                              OIG . . . . . . . . . . . . . . . . . . . . . . . . . .  Office of the Inspector General
violation of a law, regulation, contract,
cooperative agreement, or other               O&M . . . . . . . . . . . . . . . . . . . . . . . . . . . Operations and Maintenance
document governing the expenditure of         OPM . . . . . . . . . . . . . . . . . . . . . . . . Office of Personnel Management
funds; (2) such cost is not supported
by adequate documentation; or                 OSHA . . . . . . . . . .  Occupational Safety and Health Administration
(3) the expenditure of funds for the          SBIR . . . . . . . . . . . . . . . . . . . . . . . Small Business Innovation Research
intended purposes was unnecessary
                                              SEC . . . . . . . . . . . . . . . . . . . . . Securities and Exchange Commission
or unreasonable.
                                              STTR . . . . . . . . . . . . . . . . . . . . . . Small Business Technology Transfer
Unsupported Costs A cost that                 TVA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Tennessee Valley Authority
is questioned because of the lack of
adequate documentation at the time            USEPA . . . . . . . . . . . . . . . . . . U.S. Environmental Protection Agency
of the audit.                                 WP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Winning Performance

                                              WVDEP . . . . . . . . . . . . . . . . . . . . . . . . . . . . West Virginia Department
                                              		                                                         of Environmental Protection




                                                    Semia nnua l Repo rt                        Oc to b e r 1, 2010 – Ma rc h 3 1 , 2 0 1 1                53
                      Office of the Inspector General
                      400 West Summit Hill Drive
                      Knoxville, Tennessee 37902

                      The OIG is an independent organization charged with conducting audits, inspections, and
                      investigations relating to TVA programs and operations, while keeping the TVA Board and
                      Congress fully and currently informed about problems and deficiencies relating to the
                      administration of such programs and operations.

                      The OIG focuses on (1) making TVA’s programs and operations more effective and efficient;
                      (2) preventing, identifying, and eliminating waste, fraud, and abuse and violations of laws,
                      rules, or regulations; and (3) promoting integrity in financial reporting.

                      If you would like to report to the OIG any concerns about fraud, waste, or abuse involving
                      TVA programs or violations of TVA’s Code of Conduct, you should contact the OIG Empowerline
                      system. The Empowerline is administered by a third-party contractor and can be reached
                      24 hours a day, seven days a week, either by a toll-free phone call (1.877.866.7840) or on
                      the Web (www.oigempowerline.com). You may report your concerns anonymously or you
                      may request confidentiality.


                      Report Concerns to the OIG Empowerline




                           A confidential connection for reporting fraud,
                                   waste or abuse affecting TVA.


                          HOW TO REPORT A CONCERN

                         Call toll-free: 877.866.7840

                         Or report on the web:
                         www.OIGempowerline.com




54   Octo ber 1, 2010 – M a rc h 3 1, 2011   S e m i a n nua l Repo rt
Leadership  OIG

                    Philosophy

  The TVA OIG strives to be a high performing
 organization made up of dedicated individuals
  who are empowered, motivated, competent,
 and committed to producing high quality work
    that improves TVA and life in the Valley.


      Each of us has important leadership,
    management, team, and technical roles.
 We value integrity, people, open communication,
       expansion of knowledge and skills,
          creative problem solving and
         collaborative decision making.
makingTVA better




                   Te n n e s s e e Va l l e y A u t h o r i t y
                   Office of the Inspector General


                   400 West Summit Hill Drive
                   Knoxville, Tennessee 37902
